No. 20In the

Supreme Court of the United States
MARCUS & MILLICHAP REAL ESTATE
INVESTMENT SERVICES OF NEVADA, INC.; et al.,
Petitioners,
v.
SHARATH CHANDRA, IN HIS OFFICIAL CAPACITY
AS ADMINISTRATOR OF THE REAL ESTATE
DIVISION, DEPARTMENT OF BUSINESS
& INDUSTRY, STATE OF NEVADA; et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Samuel B. Gedge
Counsel of Record
Diana K. Simpson
Institute for Justice
901 North Glebe Road, Suite 900
Arlington, VA 22203
(703) 682-9320
sgedge@ij.org
Counsel for Petitioners

A
(800) 274-3321 • (800) 359-6859

i
Question presented
Sua sponte decision-making marks a departure from
the normal adversarial process. For that reason, this
Court has limited the federal courts’ discretion to resurrect unraised, nonjurisdictional defenses. Ordinarily, the
courts have no power to raise such defenses on their own
motion. But when a defense implicates comity interests,
the courts have a measure of discretion. They can raise a
comity-based defense sua sponte—but only if the defense
was “‘inadverten[tly]’ overlooked” and, even then, only
“when extraordinary circumstances so warrant.” Wood
v. Milyard, 566 U.S. 463, 471 (2012).
Like the defenses the Court canvassed in Wood,
Younger abstention is a comity-based, nonjurisdictional
doctrine.
The question presented is: whether any standard
should guide the courts of appeals’ discretion to raise
Younger abstention sua sponte.

ii
Parties to the proceeding and
Corporate Disclosure Statement
Petitioners are Marcus & Millichap Real Estate Investment Services of Nevada, Inc.; Marcus & Millichap
Real Estate Investment Services, Inc.; Alvin Najib Mansour; Gordon Allred; Kevin Najib Mansour; Perry White;
and Nenad Zivkovic.
The parent corporation of Petitioner Marcus & Millichap
Real Estate Investment Services, Inc. is Marcus & Millichap,
Inc. Marcus & Millichap, Inc. is a publicly held company and
owns all issued and outstanding shares of stock in petitioner
Marcus & Millichap Real Estate Investment Services, Inc.
Petitioner Marcus & Millichap Real Estate Investment
Services of Nevada, Inc. is a wholly owned subsidiary of
petitioner Marcus & Millichap Real Estate Investment
Services, Inc. and an indirect subsidiary of publicly held
company Marcus & Millichap, Inc.
Respondents are Sharath Chandra, in his official capacity as Administrator of the Real Estate Division, Department
of Business & Industry, State of Nevada; Devin J. Reiss, in
his official capacity as Commissioner of the Nevada Real
Estate Commission; Darrel Plummer, in his official capacity
as Commissioner of the Nevada Real Estate Commission;
Lee R. Gurr, in his official capacity as Commissioner of the
Nevada Real Estate Commission; Lee K. Barrett, in his official capacity as Commissioner of the Nevada Real Estate
Commission; and Spiridon Filios, in his official capacity as
Commissioner of the Nevada Real Estate Commission.*
* Some previously serving officers were defendants in their
official capacity in the lower courts. Wayne Capurro, Neil Schwartz,
Sherrie Cartinella, and Norma Jean Opatik each served as
Commissioners of the Nevada Real Estate Commission. Joseph
Decker served as Administrator of the Nevada Real Estate Division.

iii
Related proceedings
The proceedings directly related to this petition are:
United States District Court (D. Nev.):
Marcus & Millichap Real Estate Investment Services of Nevada, Inc.; et al. v. Chandra; et al.,
No. 2:16-cv-01299-RFB-GWF (July 9, 2019)
United States Court of Appeals (9th Cir.):
Marcus & Millichap Real Estate Investment Services of Nevada, Inc.; et al. v. Chandra; et al., No.
17-17423 (Jan. 26, 2018) (order noting voluntary
dismissal of appeal from order denying preliminary injunction)
Marcus & Millichap Real Estate Investment Services of Nevada, Inc.; et al. v. Chandra; et al.,
No. 19-16446 (Aug. 7, 2020)
Other proceedings that are not directly related to this
petition but that involve many of the same parties are:
United States District Court (D. Nev.):
Marcus & Millichap Real Estate Investment Services of Nevada, Inc.; et al. v. Reiss; et al., No.
2:18-cv-02409-RFB-VCF (Oct. 11, 2020) (order
noting stipulation of dismissal)

iv
Nevada District Court (First Judicial District for
Carson City):
Alvin Mansour; et al. v. State of Nevada ex
rel. Nevada Real Estate Comm’n; et al., No.
18OC000411B (consolidated)

v
TABLE OF CONTENTS
Page
Opinions below  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Statutory provisions involved . . . . . . . . . . . . . . . . . . . . . . 1
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statement  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Reasons for granting the petition . . . . . . . . . . . . . . . . . . .8
A. The Ninth Circuit’s practice of raising
Younger abstention sua sponte conflicts
with this Court’s precedent . . . . . . . . . . . . . . . . . . 9
1.

Under this Court’s precedent, the
federal courts enjoy limited discretion
to raise comity-based defenses sua
sponte . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

2.

The courts of appeals exercise
unconstrained discretion in raising
Younger abstention sua sponte  . . . . . . . . . 12

B. The prevailing approach in the courts of
appeals has led to a variety of conflicting
outcomes and presents an important
question of federal law . . . . . . . . . . . . . . . . . . . . . 15

vi
Table of Contents
Page
1.

The courts of appeals’ practice of
raising Younger abstention sua
sponte leads to arbitrary results . . . . . . . . 15

2.

On questions of access to the federal
courts, uniformity and transparency
are essential  . . . . . . . . . . . . . . . . . . . . . . . . . 19

3.

The question presented should be
decided now . . . . . . . . . . . . . . . . . . . . . . . . . . 20

C. This case is an appropriate vehicle for
addressing the question presented  . . . . . . . . . . 21
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

vii
TABLE OF APPENDICES
Page
Appendix A — Court of appeals opinion
(Aug. 7, 2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B — Court of appeals order regarding
supplemental briefing (June 8, 2020) . . . . . . . . . . . . . 8a
Appendix C — Court of appeals order regarding
oral argument (June 1, 2020)  . . . . . . . . . . . . . . . . . . 10a
Appendix D — District court opinion (July 8, 2019)  . 11a
Appendix E — Court of appeals order denying
petition for rehearing (Sept. 21, 2020) . . . . . . . . . . . 33a

viii
TABLE OF CITED AUTHORITIES
Page
Cases:
Arizonans for Official English v. Arizona,
520 U.S. 43 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Bellotti v. Baird,
428 U.S. 132 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Blanchard v. Bergeron,
489 U.S. 87 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Bond v. United States,
564 U.S. 211 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Citizens for Free Speech, LLC v.
County of Alameda,
953 F.3d 655 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . 7
Columbia Basin Apartment Ass’n v.
City of Pasco,
268 F.3d 791 (9th Cir. 2001) . . . . . . . . . . . . . . . . . . . .  17
Day v. McDonough,
547 U.S. 198 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Gibson v. Berryhill,
411 U.S. 564 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Gilbertson v. Albright,
381 F.3d 965 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 22

ix
Cited Authorities
Page
Granberry v. Greer,
481 U.S. 129 (1987) . . . . . . . . . . . . . . . . . . . . . . . .  11, 18
Greenlaw v. United States,
554 U.S. 237 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
H.C. ex rel. Gordon v. Koppel,
203 F.3d 610 (9th Cir. 2000) . . . . . . . . . . . . . . . . . . . .  17
Hicks v. Miranda,
422 U.S. 332 (1975) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 22
Hill v. Snyder,
878 F.3d 193 (6th Cir. 2017)  . . . . . . . . . . . . . . . . . . . . 23
Hollingsworth v. Perry,
558 U.S. 183 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Hoye v. City of Oakland,
653 F.3d 835 (9th Cir. 2011) . . . . . . . . . . . . . . . . . . . .  17
Kendall-Jackson Winery, Ltd. v. Branson,
212 F.3d 995 (7th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 13
Kingston v. Utah County,
161 F.3d 17 (10th Cir. 1998)  . . . . . . . . . . . . . . . . . . . . 18
Kirtsaeng v. John Wiley & Sons, Inc.,
136 S. Ct. 1979 (2016)  . . . . . . . . . . . . . . . . . . . 13, 20, 21

x
Cited Authorities
Page
Kyricopoulos v. Town of Orleans,
967 F.2d 14 (1st Cir. 1992)  . . . . . . . . . . . . . . . . . . . . .  17
Lawrence v. McCarthy,
344 F.3d 467 (5th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 18
Lexmark Int’l, Inc. v. Static Control
Components, Inc.,
572 U.S. 118 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Louisville Country Club v. Watts,
178 F.3d 1295 (6th Cir. 1999) . . . . . . . . . . . . . . . .  17, 20
Martin v. Franklin Capital Corp.,
546 U.S. 132 (2005) . . . . . . . . . . . . . . . . . . . . 3, 9, 18, 24
Morales v. Trans World Airlines, Inc.,
504 U.S. 374 (1992)  . . . . . . . . . . . . . . . . . . 13, 19, 20, 23
Morrow v. Winslow,
94 F.3d 1386 (10th Cir. 1996) . . . . . . . . . . . . . . . . 18, 20
Moses H. Cone Mem’l Hosp. v.
Mercury Constr. Corp.,
460 U.S. 1 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Nationwide Biweekly Admin., Inc. v. Owen,
873 F.3d 716 (9th Cir. 2017)  . . . . . . . . . . . . . . . . . . . . 22

xi
Cited Authorities
Page
New Orleans Pub. Serv., Inc. v.
Council of City of New Orleans,
491 U.S. 350 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . 12, 19
Ohio Bureau of Emp. Servs. v. Hodory,
431 U.S. 471 (1977)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Ohio Civil Rights Comm’n v.
Dayton Christian Sch., Inc.,
477 U.S. 619 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
O’Neill v. City of Phila.,
32 F.3d 785 (3d Cir. 1994) . . . . . . . . . . . . . . . . . . . 18, 20
Perry v. Clark County Child Protective Servs.,
84 F. App’x 947 (9th Cir. 2003) . . . . . . . . . . . . . . . . . .  17
Quackenbush v. Allstate Ins. Co.,
517 U.S. 706 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Seals v. McBee,
907 F.3d 885 (5th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 16
Sequoia Books, Inc. v. McDonald,
725 F.2d 1091 (7th Cir. 1984) . . . . . . . . . . . . . . . . . . . 14
Shannon v. Telco Commc’ns, Inc.,
824 F.2d 150 (1st Cir. 1987)  . . . . . . . . . . . . . . . . . . . . 16

xii
Cited Authorities
Page
Sprint Commc’ns, Inc. v. Jacobs,
571 U.S. 69 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . 12, 19
Tamberella v. Nev. Empl. Sec. Div.,
210 F.3d 385 (9th Cir. 2000) . . . . . . . . . . . . . . . . . . . .  17
United States v. Arvizu,
534 U.S. 266 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
United States v. Burke,
504 U.S. 229 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . 10
Universal Amusement Co. v. Vance,
587 F.2d 159 (5th Cir. 1978),
aff’d, 445 U.S. 308 (1980)  . . . . . . . . . . . . . . . . . . . . . .  17
Wasson v. Riverside County,
234 F. App’x 529 (9th Cir. 2007)  . . . . . . . . . . . . . . . .  17
Winston ex rel. Winston v. Children & Youth
Servs. of Delaware County,
948 F.2d 1380 (3d Cir. 1991) . . . . . . . . . . . . . . . . .  16, 17
Wood v. Milyard,
566 U.S. 463 (2012) . . . . . . . . . . . . . . . . . . . . . . . passim

xiii
Cited Authorities
Page
Word of Faith World Outreach Ctr. Church, Inc.
v. Morales,
986 F.2d 962 (5th Cir. 1993) . . . . . . . . . . . . . . . . . . . .  17
Younger v. Harris,
401 U.S. 37 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Regulations:
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Nev. Admin. Code § 645.185(11) . . . . . . . . . . . . . . . . . . . . 5
Nev. Rev. Stat. § 645.550(1) . . . . . . . . . . . . . . . . . . . . . . . . 4
Nev. Rev. Stat. § 645.550(3) . . . . . . . . . . . . . . . . . . . . . . . . 4
Nev. Rev. Stat. § 645.605 . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Other Authorities:
E. Martin Estrada, Pushing Doctrinal Limits:
The Trend Toward Applying Younger
Abstention to Claims for Monetary Damages
and Raising Younger Abstention Sua Sponte
on Appeal, 81 N.D. L. Rev. 475 (2005) . . . . . . . . 14, 21
Stephan Landsman, Readings on Adversarial
Justice: The American Approach to
Adjudication (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . 10

1
Petitioners Marcus & Millichap Real Estate Investment Services of Nevada, Inc.; Marcus & Millichap Real
Estate Investment Services, Inc.; Alvin Najib Mansour;
Gordon Allred; Kevin Najib Mansour; Perry White; and
Nenad Zivkovic respectfully petition for a writ of certiorari to review the judgment of the United States Court
of Appeals for the Ninth Circuit in this case.
Opinions below
The opinion of the court of appeals (App. 1a-7a) is
unpublished, but the decision is available at 822 F. App’x
597. The opinion of the district court (App. 11a-32a) is
reported at 400 F. Supp. 3d 1074.
Jurisdiction
The judgment of the court of appeals was entered on
August 7, 2020. A petition for rehearing was denied on
September 21, 2020. App. 33a-34a. On March 19, 2020, this
Court extended the time within which to file a petition for
a writ of certiorari due on or after that date to 150 days
from the date of, as relevant here, the order denying a
timely petition for rehearing. Under that order, the deadline for filing a petition for a writ of certiorari is February
18, 2021. The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
Statutory provisions involved
This appeal involves the court of appeals’ sua sponte
invocation of the Younger abstention doctrine. See Younger
v. Harris, 401 U.S. 37 (1971). It involves no constitutional
provisions, statutes, or regulations.

2
Introduction
This case presents a straightforward but important
question: should any standard govern the courts of appeals’ discretion to raise Younger abstention sua sponte?
The answer is yes. Younger abstention is a comity-based,
nonjurisdictional defense. And—as the Court has held
in similar contexts—the federal courts “do[] not have
carte blanche” to raise comity-based, nonjurisdictional
defenses sua sponte. Wood v. Milyard, 566 U.S. 463, 472
(2012). Rather, the courts may resurrect such a defense
only when “‘inadverten[tly]’ overlooked” by the party to
be benefited—and even then, only “when extraordinary
circumstances so warrant.” Id. at 471 (citation omitted). If
the federal courts are to depart from the principle of party
presentation, in other words, they must have a compelling
reason for doing so.
This standard extends logically to the courts’ discretion to introduce Younger abstention. In practice, however,
the courts of appeals apply no standard at all; when opting
to raise Younger abstention sua sponte, the courts exercise unconstrained and unexplained discretion. In this
case, for example, the government (Nevada’s real-estate
regulatory agency) showed itself aware of the Younger
doctrine throughout three years of district-court litigation. Having won on the merits, though, the government
ignored Younger on appeal. It did not cross-appeal the
district court’s decision not to abstain. It did not mention
Younger in its brief. And when pressed at oral argument,
it suggested that the omission was deliberate: “I think that
we just decided that we had a winning case.”

3
Even so, the court of appeals “prompted” the government to argue for Younger abstention (App. 6a) and
disposed of the case on that ground. In doing so, the court
offered no reason for its decision to raise Younger sua
sponte. It did not ask whether “extraordinary circumstances” justified its doing so. Wood, 566 U.S. at 471. It
gave no sign that its exercise of discretion was guided by
any principles at all. Rather, the court claimed the power
to “raise the issue of Younger abstention sua sponte on appeal,” and it deployed that power without further inquiry.
In this way, the decision below exemplifies a broader
phenomenon: courts of appeals’ exercising unguided
discretion in raising Younger abstention on their own
motion. The result is arbitrariness made manifest.
“[L]imiting discretion according to legal standards helps
promote the basic principle of justice that like cases should
be decided alike.” Martin v. Franklin Capital Corp., 546
U.S. 132, 139 (2005). Across several circuits, however, a
subset of plaintiffs find themselves ejected from federal
court on Younger grounds—sua sponte and seemingly
at random. In all these cases, the federal courts have Article III jurisdiction. With Younger unargued, the federal
courts can properly exercise that jurisdiction. Yet appellate panels invoke Younger unilaterally, leaving litigants
unable to proceed in federal court. Typically, the courts
exercising this extraordinary power give no reason for doing so; for the litigants before them, access to the federal
courts depends on luck of the draw.
This Court’s intervention is needed. The Court’s “interest in supervising the administration of the judicial
system” is “significant.” Hollingsworth v. Perry, 558 U.S.
183, 196 (2010) (per curiam). And few questions are more

4
demanding of uniformity than whether and when an Article III court can sua sponte abdicate its duty to decide
cases properly before it. This is thus the rare case that
warrants the Court’s review even absent a visible circuit
conflict; worse than conflicting standards are no standards
at all. Indeed, it is precisely because the courts of appeals
have taken to exercising standardless, unexplained discretion that a visible circuit split is unlikely to ripen. The
petition should be granted so that this Court can clarify
that the lower courts’ discretion to raise Younger abstention sua sponte is not “carte blanche to depart from the
principle of party presentation.” Wood, 566 U.S. at 472.
Statement
1. Petitioner Marcus & Millichap Real Estate Investment Services, Inc. is one of the largest commercial
real-estate brokerage companies in the nation. Its work is
inherently national, with the company catering to clients
with complex, interstate brokerage needs.
Some States’ brokerage-license laws accommodate
this sort of practice. But Nevada—where this case arises—presents challenges. Out-of-state brokers can apply
for a Nevada license, for example, but they must maintain a
physical presence within Nevada’s borders. Nev. Rev. Stat.
§ 645.550(1), (3). An alternative in some States is for outof-staters to “cooperate” with local brokers. In Nevada,
though, the cooperative-brokering law is similarly hostile
to outsiders. The Nevada legislature has long authorized
the State’s real-estate regulators “to issue certificates
authorizing out-of-state licensed brokers to cooperate
with Nevada brokers.” Id. § 645.605. But as administered,
cooperative brokering is legal only for a narrow slice of

5
work. See Nev. Admin. Code § 645.185(11). The goal—one
state official wrote in 2014—is to prevent out-of-staters
from “taking business away from our Nevada licensees.”
Pet. C.A. E.R. 690.
In April and May 2016, an investigator for the Nevada Real Estate Division sent letters to the individual
petitioners (all agents of Marcus & Millichap). The letters
advised that the agency had opened investigations into
their listing properties for sale in Nevada. Soon after, the
agency ordered three of the individual petitioners to cease
and desist activities that “require[] a license . . . from the
State of Nevada Real Estate Division.”
2. In June 2016, the individual petitioners—along with
Marcus & Millichap Real Estate Investment Services,
Inc., and its Nevada subsidiary—filed this case in federal
court. They asserted, among other claims, that Nevada’s
restrictions on cooperative brokering violate the Dormant
Commerce Clause and the First Amendment.
In the motion to dismiss that followed, the government
invoked Younger abstention. The government acknowledged that it had yet to “fil[e] a formal complaint” against
any of petitioners. But it contended that the district court
should abstain nonetheless. Mot. to Dismiss, D. Ct. Doc.
19, at 6 (Aug. 12, 2016).
The government waited nearly another year before
launching formal administrative proceedings against petitioners. (The government’s first administrative complaint
was filed in late April 2017; the rest were filed that July.)
By then, petitioners’ federal case had been active for over
ten months. The parties had briefed a motion to dismiss.

6
The district court had held argument on that motion. The
court had denied the government’s request for Younger
abstention. Mar. 22, 2017 Tr., D. Ct. Doc. 156, at 34 (“The
Court finds that currently based upon the record before
me at the motion to dismiss stage that there is no ongoing
proceeding where a federal issue could be adjudicated.”).
The court had dismissed petitioners’ First Amendment
claim on the merits. The court had held that petitioners
“stated a plausible claim under the Dormant Commerce
Clause.” Id. at 35. And discovery was underway.
District-court litigation proceeded for another two
years. Throughout, the government showed itself aware
of the Younger doctrine. The government’s summaryjudgment motion, for example, urged the district court
to “revisit the arguments in the Defendants’ Motion to
Dismiss . . . and apply Younger Abstention here.” Defs.’
Mot. Summ. J., D. Ct. Doc. 72, at 18 (Aug. 25, 2017). Later,
the government purported to incorporate that argument
in a renewed motion. Defs.’ Renewed Mot. Summ. J., D.
Ct. Doc. 135, at 7 (Mar. 6, 2018).
Ultimately, the district court did not abstain under
Younger; it ruled for the government on the merits. The
court held that the individual plaintiffs (though not the
entities) had standing to challenge at least some of Nevada’s licensure and cooperative-broker laws. App. 24a26a. But the court concluded that “the Nevada licensing
scheme as applied to out-of-state brokers does not violate
the Dormant Commerce Clause.” App. 30a.
3. Petitioners appealed, contesting the district court’s
conclusions on standing and its judgment against them
on the merits. With a victory in hand, the government no
longer argued for Younger abstention. The government

7
did not cross-appeal the district court’s decision not to
abstain. Nor did the government raise Younger abstention in its brief; it asked instead that the district court’s
judgment be affirmed. See Resp. C.A. Br. 58-59.
Two days before oral argument, the court of appeals
directed the parties to “be prepared to discuss at oral
argument the applicability of Younger abstention.” App.
10a. And at argument, the government suggested that its
choice to forgo Younger on appeal had been a conscious
one:
[Court]: Why didn’t you cross-appeal . . . ?
[Government]: Well, I was not on the case at
that time, but I think that we just decided that
we had a winning case. That’s the best I can
answer.
Oral Arg. 24:04-24:18 (June 3, 2020), https://tinyurl.com/
yxmyrqg8.
Even so, the court of appeals ordered supplemental
briefing on Younger. App. 8a-9a. It then disposed of the
appeal on that ground. The court reasoned that it “may
raise the issue of Younger abstention sua sponte on appeal.” App. 4a; see also App. 4a (“[T]he court may raise
abstention of its own accord at any stage of the litigation.” (quoting Citizens for Free Speech, LLC v. County
of Alameda, 953 F.3d 655, 658 (9th Cir. 2020))). The court
acknowledged no constraint on its discretion to introduce
Younger. The court also was “unpersuaded” that the government had “abandoned” Younger, observing that the
government had advocated for it “when prompted” at oral
argument and in its later supplemental brief. App. 5a-6a.

8
Turning to the substance of the Younger inquiry, the
court reasoned that the government’s “formal administrative complaints” triggered abstention. App. 5a. Ordinarily,
the court acknowledged, a state enforcement proceeding
can justify Younger abstention only if initiated “before the
federal case ha[s] ‘moved beyond an “embryonic stage.”’”
App. 5a; see generally Hicks v. Miranda, 422 U.S. 332,
349 (1975). And here, Nevada’s administrative complaints
trailed petitioners’ federal case by nearly a year. Still, the
court of appeals held, abstention was warranted. App. 5a
(“Nevada filed formal administrative complaints against
the Individual Plaintiffs before the district court ruled
on any discovery motions and before Plaintiffs had even
filed their motion for a preliminary injunction.”). The
court thus “decline[d] to address the merits,” vacated the
district-court judgment, and remanded for the lower court
to dismiss the case. App. 7a.
4. Petitioners filed a petition for rehearing, which the
court denied. App. 33a-34a.
Reasons for granting the Petition
Few questions are more demanding of uniform,
transparent resolution than whether and when the federal courts can sua sponte abdicate their jurisdiction.
Yet the decision below is the latest example of a court
of appeals’ exercising unconstrained discretion to raise
Younger abstention sua sponte and deny litigants access
to a federal forum. Such an extraordinary step demands
an extraordinary justification; the federal courts need a
good reason to raise defenses on their own motion, and
that is doubly true when a court intends to opt out of a
case over which it properly has jurisdiction. In decisions

9
like the one below, however, the courts of appeals invoke
Younger seemingly at random, giving no reasons and
acknowledging no standard to guide their discretion.
The resulting patchwork of decisions contravenes this
Court’s precedent and “the basic principle of justice that
like cases should be decided alike.” Martin v. Franklin
Capital Corp., 546 U.S. 132, 139 (2005).
The Court’s intervention is warranted to address
this recurring problem; no litigant’s access to federal
court should depend on chance. This case is an excellent
vehicle for addressing the question whether any standard
constrains the courts’ discretion to raise Younger abstention sua sponte, and the petition for a writ of certiorari
should be granted.
A.

The Ninth Circuit’s practice of raising Younger
abstention sua sponte conflicts with this
Court’s precedent.

The decision below adds to a line of circuit precedent
in which the courts of appeals have claimed a blank check
to raise Younger abstention sua sponte. In almost every
such case, the courts of appeals recognize no standards
guiding their exercise of discretion. The result—arbitrary,
unprompted decision-making—is at odds with the rule
that the federal courts “do[] not have carte blanche to
depart from the principle of party presentation,” but can
justify doing so only in narrow, “exceptional” cases. Wood
v. Milyard, 566 U.S. 463, 471, 472 (2012).

10
1.

Under this Court’s precedent, the federal
courts enjoy limited discretion to raise
comity-based defenses sua sponte.

Our nation’s “adversarial system of adjudication”
rests on “the principle of party presentation.” United
States v. Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020).
Simply, the federal courts “rely on the parties to frame
the issues for decision,” with judges assigned “the role of
neutral arbiter of matters the parties present.” Greenlaw v. United States, 554 U.S. 237, 243 (2008). More than
“just a prudential rule of convenience,” this principle
“distinguishes our adversary system of justice from the
inquisitorial one.” United States v. Burke, 504 U.S. 229,
246 (1992) (Scalia, J., concurring in the judgment). It aids
the courts’ truth-seeking function. And by establishing the
courts as “essentially passive instruments of government,”
it sets judges apart as impartial, detached decisionmakers.
Sineneng-Smith, 140 S. Ct. at 1579 (citation omitted); see
also Stephan Landsman, Readings on Adversarial Justice: The American Approach to Adjudication 2 (1988)
(“Adversary theory further suggests that neutrality and
passivity are essential not only to ensure an evenhanded
consideration of each case, but also to convince society at
large that the judicial system is trustworthy.”).
Given these considerations, this Court has carefully
defined the circumstances in which the federal courts
may “depart from the principle of party presentation” and
decide issues the parties have failed to raise or preserve.
Wood, 566 U.S. at 472. Besides subject-matter jurisdiction—which the courts have a duty to interrogate—the
courts have limited power to resurrect defenses on a
party’s behalf. In fact, the general rule is that the courts

11
have no discretion at all to raise nonjurisdictional defenses
on their own motion. See id. at 470.
At the same time, there is a “modest exception”
for defenses “founded on concerns broader than those
of the parties”—for example, ones implicating “comity
interest[s].” Id. at 470, 471. The federal courts have a measure of discretion to raise these defenses sua sponte. But
that discretion is limited. The courts cannot, for instance,
resurrect even a comity-based defense if the party to be
benefited has “intentional[ly] relinquish[ed]” it. Id. at
474 (citation omitted). Rather, the courts have discretion
to raise such a defense only when a litigant has merely
“‘inadverten[tly]’ overlooked” it. See id. at 471 (quoting
Granberry v. Greer, 481 U.S. 129, 134 (1987)). Even then,
the courts do not have “carte blanche” (id. at 472); they
may raise the forfeited defense sua sponte only “when
extraordinary circumstances so warrant.” See id. at 471
(citing Day v. McDonough, 547 U.S. 198, 201 (2006)).
Appeals courts, moreover, should be especially circumspect. For “[w]hen a court of appeals raises a procedural impediment to disposition on the merits, and disposes of the case on that ground, the district court’s labor
is discounted . . . .” Id. at 474. Thus, “[a]lthough a court of
appeals has discretion to address, sua sponte,” certain
comity-based defenses, this Court has admonished that
they “should reserve that authority for use in exceptional
cases.” Id. at 473.

12
2.

The courts of appeals exercise unconstrained discretion in raising Younger
abstention sua sponte.

a. When it comes to raising Younger abstention sua
sponte, the courts of appeals do not apply anything resembling the principles set forth above. Here, for example,
the court of appeals did not ask whether the government
had intentionally relinquished Younger on appeal. Nor did
the court inquire whether extraordinary circumstances
entitled it to raise Younger on its own motion. Rather, the
court exercised its discretion to raise Younger with no sign
that it viewed that discretion as subject to any constraint.
That was error; the principles synthesized in Wood
apply with equal force to sua sponte Younger abstention. Much like the habeas defenses canvassed in Wood,
the Younger doctrine “rest[s] primarily on . . . comity.”
See New Orleans Pub. Serv., Inc. v. Council of City of
New Orleans, 491 U.S. 350, 364 (1989). It counsels that
the federal courts should abstain from exercising their
jurisdiction when doing so would interfere with an ongoing state criminal or quasi-criminal case. See Sprint
Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 78, 81 (2013); see
also id. at 78 (cataloguing other proceedings that can
implicate Younger). And—again like the doctrines in
Wood—Younger abstention is not jurisdictional. Ohio
Civil Rights Comm’n v. Dayton Christian Sch., Inc., 477
U.S. 619, 626 (1986). Rather, it is “designed to allow the
State an opportunity to ‘set its own house in order’ when
the federal issue is already before a state tribunal.” Ohio
Bureau of Emp. Servs. v. Hodory, 431 U.S. 471, 479-80
(1977). So, once more like the doctrines in Wood, Younger
abstention can be waived, if the government intentionally

13
abandons it. See id. Or it can be forfeited, if the government simply fails to raise it. See, e.g., Morales v. Trans
World Airlines, Inc., 504 U.S. 374, 381 n.1 (1992).
Given these similarities between Younger and other
comity-based defenses, the principles set out in Wood
logically extend to the courts’ power to raise Younger sua
sponte. Because Younger abstention implicates comity
values, the courts of appeals certainly have discretion to
consider raising the doctrine when the government has
“‘inadverten[tly]’ overlooked” it. See Wood, 566 U.S. at
471. But “in a system of laws discretion is rarely without
limits.” Kirtsaeng v. John Wiley & Sons, Inc., 136 S. Ct.
1979, 1985 (2016) (citation omitted). And for all the reasons
expressed in Wood, the courts’ power to raise Younger sua
sponte is far from a blank check; it is “reserve[d] . . . for
use in exceptional cases.” 566 U.S. at 473.
If anything, that constraint applies with special force
when it comes to Younger. For when the government
“has not argued for abstention,” the Court has counseled
that “the federal-state comity considerations underlying
Younger are . . . not implicated” at all. Morales, 504 U.S.
at 381 n.1; cf. Kendall-Jackson Winery, Ltd. v. Branson,
212 F.3d 995, 997 (7th Cir. 2000) (Easterbrook, J.) (“Abstention is designed for the states’ benefit, and if a state
is content with the outcome of federal litigation . . . then
abstention serves no point.”). In opting to raise Younger
on its own motion—without exercising its discretion in
any considered way—the court below thus did precisely
what this Court warned against in Wood: it claimed “carte
blanche to depart from the principle of party presentation.” See 566 U.S. at 472.

14
b. As it has in earlier cases, the Ninth Circuit traced
its blank-check approach to this Court’s decision in Bellotti
v. Baird, 428 U.S. 132 (1976). See App. 4a. At footnote 10
of Bellotti, the Court remarked that “it would appear that
abstention may be raised by the court sua sponte.” 428
U.S. at 143 n.10. And the courts of appeals have long seized
on that sentence as blessing unconstrained discretion to
introduce Younger on the government’s behalf. See generally E. Martin Estrada, Pushing Doctrinal Limits: The
Trend Toward Applying Younger Abstention to Claims
for Monetary Damages and Raising Younger Abstention
Sua Sponte on Appeal, 81 N.D. L. Rev. 475, 490 (2005)
(“In almost all instances, their support for this proposition
can be traced to one primary source, a footnote in Bellotti
v. Baird . . . .”).
That reliance is misplaced. Far from sanctioning
unchecked discretion to raise Younger abstention, Bellotti did not involve Younger abstention at all. Rather,
it involved Pullman abstention, and the difference is a
material one. Younger abstention rests on “the notion
of ‘comity,’ that is, a proper respect for state functions.”
Younger v. Harris, 401 U.S. 37, 44 (1971). The Pullman
doctrine, by contrast, exists “for the protection of the
federal courts themselves.” Sequoia Books, Inc. v. McDonald, 725 F.2d 1091, 1095 (7th Cir.), cert. denied, 469 U.S.
817 (1984). Simplifying slightly, it lets the federal courts
temporarily stay proceedings while state courts resolve
questions of state law, much like modern-day certification.
See Arizonans for Official English v. Arizona, 520 U.S.
43, 75-76 (1997). In this way, Pullman (and the courts’
power to invoke it) differs fundamentally from Younger
abstention—a defense that “contemplates the outright
dismissal of the federal suit.” Gibson v. Berryhill, 411
U.S. 564, 577 (1973).

15
The lower courts’ freewheeling approach to raising
Younger abstention violates this Court’s precedent on
sua sponte decision-making and the precept that “discretion must be exercised under the relevant standard[s]
prescribed by this Court.” Moses H. Cone Mem’l Hosp. v.
Mercury Constr. Corp., 460 U.S. 1, 19 (1983). The Court
should thus grant review to make clear that the principles
synthesized in Wood v. Milyard apply equally to the
courts’ discretion to raise Younger abstention.
B. The prevailing approach in the courts of appeals has led to a variety of conflicting outcomes and presents an important question of
federal law.
The Ninth Circuit is not unique in exercising unconstrained discretion to raise Younger sua sponte. Across
the nation, the decision whether and when to introduce
Younger is guided by no principles and justified by no
reasoning. Materially identical litigants experience vastly
different treatment based on no more than the make-up
of their appellate panels. This lack of reasoned decisionmaking—and on a matter as important as access to the
federal courts—warrants this Court’s review.
1.

The courts of appeals’ practice of raising
Younger abstention sua sponte leads to
arbitrary results.

The decision below exemplifies a broader trend: courts
of appeals’ exercising unexplained and unguided discretion in raising Younger abstention on their own motion.
The result is arbitrariness on a national scale.

16
In cases materially identical to this one, courts of appeals have looked past unraised Younger arguments and
proceeded to the merits. In a recent Fifth Circuit case, for
example, the government raised Younger in the district
court but “did not include, as an issue on appeal, anything
regarding Younger.” Seals v. McBee, 907 F.3d 885, 886
n.* (2018) (per curiam). The panel thus remarked that the
“issue is not properly before us, and we do not address it.”
Id.; see also id. at 890 n.7 (Jones, J., dissenting from denial
of reh’g en banc) (objecting that the government had not
“expressly” waived Younger). In a similar First Circuit
case, the government raised Younger abstention at the
district-court level but failed to “press[] the abstention
question” on appeal. Shannon v. Telco Commc’ns, Inc.,
824 F.2d 150, 151 (1987) (Breyer, J.). Here, too, the court
of appeals “proceed[ed] to the merits.” Id. at 152.
Likewise in the Third Circuit, where government defendants raised Younger abstention in the district court,
won on the merits, and (as here) lost interest in abstention
in the ensuing appeal. Winston ex rel. Winston v. Children & Youth Servs. of Delaware County, 948 F.2d 1380,
1385 (1991), cert. denied, 504 U.S. 956 (1992). Given that
posture, the court declined to resurrect Younger on its
own motion. “[B]ecause the [district] court had decided
the relevant issues favorably to defendants,” the court
observed, “it is perfectly understandable why they would
not have challenged the federal court’s right to maintain
the action.” Id. But the Third Circuit’s “request that the
parties address the issue in supplemental briefs and the
defendants’ belated attempt to claim abstention without
offering any reason for failure to preserve the issue cannot excuse the defendants from the effect of their failure
to preserve the issue.” Id. The court thus saw “no reason

17
to deviate from the rule that an issue that has not been
preserved in the briefs will not be addressed, particularly
when the district court has decided the issues on the
merits after a full trial.” Id.; see generally id. at 1397-98
(Garth, J., dissenting) (reasoning that the court had the
power to raise Younger and concluding, without elaboration, that the court should have exercised that power).
Other cases turn out similarly.1 Others—on materially
identical facts—turn out differently. The Ninth Circuit, of
course, raises Younger abstention sua sponte, and in doing
so (as here), the court typically offers no reasons behind
its exercise of discretion. App. 4a. 2 The Sixth Circuit has
proceeded similarly, Louisville Country Club v. Watts, 178
F.3d 1295 (table), cert. denied, 528 U.S. 1061 (1999), as has
1. E.g., Word of Faith World Outreach Ctr. Church, Inc.
v. Morales, 986 F.2d 962, 967 (5th Cir.) (“The Attorney General
does not appeal the district court’s refusal to abstain on Younger
grounds, and accordingly we are foreclosed from reviewing it.”),
cert. denied, 510 U.S. 823 (1993); Kyricopoulos v. Town of Orleans,
967 F.2d 14, 16 (1st Cir. 1992) (per curiam) (noting “we need not
address the issue” of Younger because the government failed to
raise it); Universal Amusement Co. v. Vance, 587 F.2d 159, 163 &
n.6 (5th Cir. 1978) (en banc) (noting that the district court denied
Younger abstention, the government “did not raise the question”
on appeal, and “th[e] issue, being nonjurisdictional, is thus not
before this court”), aff’d, 445 U.S. 308 (1980) (per curiam).
2. See also Hoye v. City of Oakland, 653 F.3d 835, 843 n.5
(9th Cir. 2011); Wasson v. Riverside County, 234 F. App’x 529, 530
(9th Cir. 2007); Perry v. Clark County Child Protective Servs., 84
F. App’x 947, 948 (9th Cir. 2003); Columbia Basin Apartment Ass’n
v. City of Pasco, 268 F.3d 791, 799-800 (9th Cir. 2001); H.C. ex rel.
Gordon v. Koppel, 203 F.3d 610, 613 (9th Cir. 2000); Tamberella v.
Nev. Empl. Sec. Div., 210 F.3d 385 (9th Cir.) (table), cert. denied,
531 U.S. 880 (2000).

18
the Tenth, Morrow v. Winslow, 94 F.3d 1386, 1391 (1996),
cert. denied, 520 U.S. 1143 (1997); see also Kingston v.
Utah County, 161 F.3d 17 (10th Cir. 1998) (table) (stating
that the “general rule” disfavoring resurrecting forfeited
arguments “does not apply here . . . because courts may
address application of the Younger doctrine sua sponte”).
So, too, have the Third Circuit and the Fifth. As noted
above (pp. 15-17), those courts have at times explicitly
declined to raise Younger sua sponte. Other times, however, they do the opposite—with no explanation for why
resurrecting Younger is warranted in some cases but not
others. O’Neill v. City of Phila., 32 F.3d 785, 786 n.1 (3d Cir.
1994) (Garth, J.) (“Even though the question of Younger
abstention was not raised by the parties on appeal, we
may consider it sua sponte.”), cert. denied, 514 U.S. 1015
(1995); see also Lawrence v. McCarthy, 344 F.3d 467, 470
(5th Cir. 2003).
Granted, discretion means that courts might come
out differently when faced with similar circumstances.
Cf. United States v. Arvizu, 534 U.S. 266, 275 (2002). But
“[d]iscretion is not whim.” Martin, 546 U.S. at 139. And
when it comes to sua sponte Younger abstention, the
patchwork of appellate decisions signals not discretion,
but caprice. In none of the cases detailed above, for example, did the courts of appeals identify “extraordinary
circumstances” justifying their raising Younger on the
government’s behalf. See Wood, 566 U.S. at 471; see also
Granberry, 481 U.S. at 134-35. Nor did the courts acknowledge “the trial court’s processes and time investment”—a
consideration this Court has singled out as one “appellate
courts should not overlook.” Wood, 566 U.S. at 473. Nor
did the courts acknowledge that “federal-state comity

19
considerations” are at their nadir when the government
“has not argued for abstention.” Morales, 504 U.S. at 381
n.1. Nor did the courts acknowledge the countervailing
interests on the plaintiffs’ side of the caption. In short, the
prevailing view among the courts of appeals appears to
be that their power to raise Younger sua sponte is guided
by no principles at all.
2.

On questions of access to the federal courts,
uniformity and transparency are essential.

The record of decisions above confirms that the
question presented is of peculiarly national importance.
Access to the federal courts is a matter of nationwide
significance, and few questions are more demanding of
uniformity than whether and when an Article III tribunal can abdicate its “virtually unflagging” duty “to hear
and decide cases within its jurisdiction.” Lexmark Int’l,
Inc. v. Static Control Components, Inc., 572 U.S. 118,
126 (2014) (quoting Sprint Commc’ns, Inc., 571 U.S. at
77) (internal quotation marks omitted). That is why this
Court has long stressed the “strict duty” of the federal
courts “to exercise the jurisdiction that is conferred upon
them by Congress.” Quackenbush v. Allstate Ins. Co., 517
U.S. 706, 716 (1996). That is also why the Court has taken
such pains to “carefully define[]” when Younger abstention
may apply. New Orleans Pub. Serv., Inc., 491 U.S. at 359.
On this front, it is essential that standards be clear and
be impartially applied.
The sua sponte decision-making on display in cases
like this one thus raises concerns of the highest order. As
matters stand, a seemingly random subset of plaintiffs find
themselves ejected from federal court. The courts have

20
jurisdiction over their cases. With Younger unargued, this
Court’s precedent confirms that the courts can properly
exercise that jurisdiction. See Morales, 504 U.S. at 381 n.1.
Yet—with the predictability of a roulette wheel—appellate panels in the Ninth Circuit and elsewhere sua sponte
opt out. If petitioners here had appeared before the Fifth
Circuit panel from Seals, for example, or the Third Circuit
panel from Winston or the First Circuit panel from Shannon, their appeal would have been decided on the merits.
Through luck of the draw, it was dismissed instead. That
exercise of “unconstrained discretion” (Kirtsaeng, 136 S.
Ct. at 1986) is not unique to the Ninth Circuit, and it calls
for correction.
3.

The question presented should be decided
now.

Further percolation would not aid the decisional
process.
First, many courts of appeals to have embraced a
blank-check approach to raising Younger abstention have
done so on the strength of Bellotti’s footnote 10. In this
case, for example, the Ninth Circuit traced its power directly to Bellotti. App. 4a. Other courts have done so as
well. See supra p. 14; see also Louisville Country Club,
178 F.3d at 1295; Morrow, 94 F.3d at 1391; O’Neill, 32 F.3d
at 786 n.1. Because many courts of appeals view Bellotti
as having already blessed their exercising unchecked
discretion, only this Court can correct that misconception.
Second, the courts of appeals’ practice of exercising
unconstrained discretion means a mature, visible circuit
split is unlikely to develop. Panels that identify—but opt

21
not to raise—unnoticed Younger defenses will rarely
have cause to explain why they chose to ignore an issue
no one briefed. And as discussed, those panels that do
raise Younger sua sponte apply no articulated standard
and give no explanation. See generally Estrada, supra,
at 490 (“The court of appeals decisions stating that sua
sponte implementation of Younger on appeal is permissible generally do so with little discussion.”). Indeed, it is
precisely for that reason that this Court’s intervention is
warranted. Worse than conflicting standards is no standard at all, and no plaintiff’s access to an Article III court
should turn on “‘whim’ or predilection.” See Kirtsaeng,
136 S. Ct. at 1986.
C.

This case is an appropriate vehicle for
addressing the question presented.

This case cleanly presents the question whether courts
of appeals’ power to raise Younger abstention sua sponte
is subject to constraints; consistent with Ninth Circuit
precedent, the court of appeals exercised unconstrained
discretion in disposing of the case on Younger grounds.
App. 4a. This case also highlights the problems with the
freewheeling approach the lower courts have favored.
Had the court of appeals exercised considered discretion,
it would not have discerned a basis for resurrecting the
Younger doctrine.
First, the record suggests that the government’s
initial choice to forgo Younger “did not stem from an
‘inadvertent error.’” Wood, 566 U.S. at 474. The government cited Younger abstention throughout three years
of district-court proceedings. Having won in that forum,
though, it opted to defend its victory rather than reas-

22
sert Younger on appeal; when pressed at oral argument,
in fact, the government suggested just that. See supra
p. 7 (“I think that we just decided that we had a winning
case.”). And the government had good reasons to jettison
Younger. Not only had the government won below, but
one of its standing arguments in the district court had
conflicted with Younger. 3 On top of that, Younger almost
certainly did not apply. The doctrine is implicated only if
a state enforcement proceeding begins “before any proceedings of substance on the merits have taken place in
the federal court.” Nationwide Biweekly Admin., Inc. v.
Owen, 873 F.3d 716, 728 (9th Cir. 2017) (quoting Hicks v.
Miranda, 422 U.S. 332, 349 (1975)), cert. denied, 138 S. Ct.
1698 (2018). And here, Nevada filed its first administrative
complaint against petitioners after nearly a year of active
federal litigation. See supra pp. 5-6.
Second—and even if the government’s actions had not
amounted to outright waiver—the court of appeals would
have been hard pressed to identify “extraordinary circumstances” warranting its raising Younger sua sponte. See
Wood, 566 U.S. at 471. As it was, the court did not even
try. The court did not consider that the district court had
devoted three years of resources to deciding petitioners’
claims on the merits. The court did not consider that the
trial judge had held seven hearings and, over the course
of the litigation, had reviewed scores of docket entries
and hundreds of pages of briefing. See id. at 474 (“When
3. Compare Defs.’ Mot. Summ. J., D. Ct. Doc. 72, at 7
(Aug. 25, 2017) (contending that a judgment for petitioners “will
not affect the administrative complaints” against them), with
Gilbertson v. Albright, 381 F.3d 965, 976 (9th Cir. 2004) (en banc)
(“[I]nterference with state proceedings is at the core of the comity
concern that animates Younger.”).

23
a court of appeals raises a procedural impediment to disposition on the merits, and disposes of the case on that
ground, the district court’s labor is discounted . . . .”); accord Hill v. Snyder, 878 F.3d 193, 206 (6th Cir. 2017) (“To
jump ship now would be to exhibit a callous disregard for
the meaningful litigation that has already occurred in the
federal court system.”). The court did not consider that the
government’s failure to argue for abstention diluted (or
even eliminated) “the federal-state comity considerations
underlying Younger.” See Morales, 504 U.S. at 381 n.1. In
sum, the court of appeals did precisely what this Court
has counseled against.
Third, a thoughtful exercise of discretion would have
accounted for the broader costs of withdrawing the federal courts from a controversy over which Congress has
vested them with jurisdiction. When meritorious, Section
1983 actions benefit not just the plaintiffs, but “society at
large.” Blanchard v. Bergeron, 489 U.S. 87, 96 (1989). So
when the government itself has not raised Younger, the
federalism concerns animating the doctrine may often
disfavor its application. Federalism, after all, is a twoway street. It is “more than an exercise in setting the
boundary between different institutions of government for
their own integrity”; it exists to “secure[] the freedom of
the individual.” Bond v. United States, 564 U.S. 211, 221
(2011); cf. Younger, 401 U.S. at 44 (“The concept does not
mean blind deference to ‘States’ Rights’ any more than it
means centralization of control over every important issue
in our National Government and its courts.”).
At base, the availability of discretion is not reason
enough to exercise it. Rather, “[a]s is always the case when
an issue is committed to judicial discretion, [a] judge’s

24
decision must be supported by a circumstance that has
relevance to the issue at hand.” Martin, 546 U.S. at 141
(citation omitted). When it comes to Younger abstention,
many courts of appeals have lost sight of that principle
and exercise unconstrained discretion to renounce their
jurisdiction sua sponte. This Court should grant review
and correct this recurring error.
Conclusion
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Samuel B. Gedge
Counsel of Record
Diana K. Simpson
Institute for Justice
901 North Glebe Road, Suite 900
Arlington, VA 22203
(703) 682-9320
sgedge@ij.org
Counsel for Petitioners
February 18, 2021

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-16446
MARCUS & MILLICHAP REAL ESTATE
INVESTMENT SERVICES OF NEVADA, INC.; et al.,
Plaintiffs-Appellants,
v.
SHARATH CHANDRA, in his official capacity as
Administrator of the Real Estate Division, Department
of Business & Industry, State of Nevada; et al.,
Defendants-Appellees.
D.C. No. 2:16-cv-01299-RFB-GWF
Appeal from the United States District Court
for the District of Nevada
Richard F. Boulware II, District Judge, Presiding
Argued and Submitted June 3, 2020
Seattle, Washington

2a

MEMORANDUM*
Filed Aug. 7, 2020
Before: GOULD, BEA, and MURGUIA, Circuit
Judges.
Marcus & Millichap Real Estate Investment Services
of Nevada, Inc. and Marcus & Millichap Real Estate
Investment Services, Inc. (together, “M&M”), as well as
individual real estate brokers affiliated with M&M (the
“Individual Plaintiffs”), (collectively, “Plaintiffs”) appeal
the district court’s order granting summary judgement
in favor of the Administrator of the Nevada Real Estate
Division and individual Commissioners of the Nevada Real
Estate Commission (collectively, “State Defendants” or
“Nevada”). We have jurisdiction under 28 U.S.C. § 1291,
and we reverse, vacate, and remand with instructions to
dismiss.
Because the parties are familiar with the facts, we
recite them briefly and only as necessary to resolve the
issues on appeal. Nevada initiated disciplinary proceedings
against the Individual Plaintiffs for conducting or assisting
others in conducting real estate business in the State
without the required real estate license or certificate.
Plaintiffs in turn sued the State Defendants under 42
U.S.C. § 1983, alleging that certain Nevada statutes and
regulations governing real estate licenses and cooperative
certificates violate the Dormant Commerce Clause of the
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

3a

United States Constitution. Plaintiffs sought declaratory
and injunctive relief, including a request that the district
court enjoin the state disciplinary proceedings and their
resulting penalties.
At various stages of this litigation, Nevada argued
that the district court should abstain pursuant to Younger
v. Harris, 401 U.S. 37 (1971) and its progeny. Ultimately,
the district court did not abstain and it granted summary
judgment in favor of Nevada, concluding that: (1) the
Individual Plaintiffs have standing to challenge section
645.185(11) of the Nevada Administrative Code; (2) none
of the Plaintiffs have standing to challenge section 645.550
of the Nevada Revised Statutes; and (3) section 645.185(11)
of the Nevada Administrative Code does not violate the
Dormant Commerce Clause. Plaintiffs timely appealed.
On appeal, Nevada noted in its briefing that the
disciplinary proceedings were pending before the state
court on a petition for judicial review. We therefore
instructed the parties to address the applicability of
Younger abstention during oral argument. Following
argument, we then ordered supplemental briefing on
whether Younger abstention is merited in this case. At
oral argument and in their supplemental briefing, the
parties took opposing positions regarding abstention, with
Nevada arguing that the elements of Younger abstention
are met.
Under Younger, federal courts “must abstain in
deference to state civil enforcement proceedings that: ‘(1)
are ongoing, (2) are quasi-criminal enforcement actions

4a

or involve a state’s interest in enforcing the orders and
judgments of its courts, (3) implicate an important state
interest, and (4) allow litigants to raise federal challenges.’”
Nationwide Biweekly Admin., Inc. v. Owen, 873 F.3d 716,
727-28 (9th Cir. 2017) (quoting ReadyLink Healthcare,
Inc. v. State Comp. Ins. Fund, 754 F.3d 754, 759 (9th Cir.
2014)). “We review de novo a district court’s determination
as to whether Younger abstention is warranted,” Vasquez
v. Rackauckas, 734 F.3d 1025, 1035 (9th Cir. 2013), and
may raise the issue of Younger abstention sua sponte
on appeal, see Citizens for Free Speech, LLC v. Cnty. of
Alameda, 953 F.3d 655, 658 (9th Cir. 2020) (“[T]he court
may raise abstention of its own accord at any stage of
the litigation.” (citing Bellotti v. Baird, 428 U.S. 132, 143
n.10 (1976))); Columbia Basin Apartment Ass’n v. City
of Pasco, 268 F.3d 791, 799 (9th Cir. 2001) (“The Younger
doctrine may be raised sua sponte at any time in the
appellate process.” (citing H.C. ex rel. Gordon v. Koppel,
203 F.3d 610, 613 (9th Cir. 2000))).
Here, Plaintiffs do not dispute that the third and
fourth elements of Younger abstention—that an important
state interest is implicated and that Plaintiffs may
raise the federal claim in the state proceeding—are
met. Indeed, the state proceedings implicate Nevada’s
important interest in the regulation of real estate brokers
in the State, and Plaintiffs are able to raise, and in fact
have already raised, the exact same constitutional claim
at issue here in those state proceedings.
Nevada has also met the two remaining elements of
Younger. First, the state proceedings—which implicate

5a

disciplinary investigations, formal complaints, notices
to appear for a hearing, and the imposition of hefty
monetary fines—are quasi-criminal enforcement actions.
See Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 79-80
(2013) (collecting cases); Citizens for Free Speech, LLC,
953 F.3d at 657.
Second, the state proceedings are “ongoing” because
Nevada initiated them before the federal case had “moved
beyond an ‘embryonic stage.’” Owen, 873 F.3d at 728 (first
quoting Hicks v. Miranda, 422 U.S. 332, 349 (1975); and
then quoting Hoye v. City of Oakland, 653 F.3d 835, 844
(9th Cir. 2011)); see also San Jose Silicon Valley Chamber
of Commerce Political Action Comm. v. City of San
Jose, 546 F.3d 1087, 1092-94 (9th Cir. 2008) (holding that
abstaining under Younger is proper where administrative
proceeding is ongoing, irrespective of whether statecourt review has been invoked). Nevada filed formal
administrative complaints against the Individual Plaintiffs
before the district court ruled on any discovery motions
and before Plaintiffs had even filed their motion for a
preliminary injunction. By the time the district court
held a hearing on the motions for summary judgment and
Nevada’s renewed Younger abstention arguments, the
State had already held hearings, entered findings, and
ordered all the Individual Plaintiffs to pay fines. Indeed,
in their supplemental briefing, the parties notified this
court that the proceedings remain ongoing. Thus, this
element of Younger abstention is also readily met here.
We are unpersuaded by Plaintiffs’ claim that Nevada
has abandoned its claim of abstention. While Nevada

6a

did not raise abstention in its answering brief on appeal
or cross-appeal the district court’s ruling on Younger
abstention, it argued in favor of abstention when prompted
at oral argument and in its supplemental briefing.
Moreover, the State raised Younger abstention at the
motion to dismiss and summary judgment stages of the
litigation below. This conduct does not amount to waiver.
Compare, e.g., Ohio Civil Rights Comm’n v. Dayton
Christian Sch., Inc., 477 U.S. 619, 625-26 (1986) (finding
that the defendant did not waive its abstention claim where
the defendant raised abstention in the district court and
at oral argument on appeal), with Ohio Bureau of Emp’t
Servs. v. Hodory, 431 U.S. 471, 479-80 (1977) (declining to
abstain where defendants did not raise Younger abstention
on appeal and “resisted” the invitation to argue abstention
when prompted during oral argument), and Kleenwell
Biohazard Waste & Gen. Ecology Consultants, Inc. v.
Nelson, 48 F.3d 391, 394 (9th Cir. 1995) (declining to
abstain where the defendants did not raise the issue before
the district court and the state administrative proceedings
had been terminated).
We are also unpersuaded by Plaintiffs’ remaining
arguments that abstention is inappropriate because it
will result in irreparable harm and that, even if Younger
abstention applies, the court should adjudicate M&M’s
claims because only the Individual Plaintiffs are parties
in the state court proceedings. See Vasquez, 734 F.3d at
1035 (noting that Younger abstention applies to plaintiffs
who are not parties in the state litigation if those plaintiffs’
interests are “so intertwined with those of the state
court party that . . . interference with the state court

7a

proceeding is inevitable” (quoting Green v. City of Tucson,
255 F.3d 1086, 1100 (9th Cir. 2001) (en banc), overruled
on other grounds by Gilbertson v. Albright, 381 F.3d
965 (9th Cir. 2004))); City of San Jose, 546 F.3d at 1096
(noting that where Younger elements are met, the court
must abstain absent evidence of “bad faith, harassment,
or an extraordinary circumstance,” regardless of “the
importance of the [constitutional] interest asserted by a
federal plaintiff”).
In sum, principles of comity and federalism caution
against inter fer ing w ith Nevada’s ongoing state
proceedings, which Plaintiffs seek to enjoin in this federal
case and which implicate the same constitutional claim
at issue here. Dismissal based on Younger abstention is
therefore warranted, see Gilbertson, 381 F.3d at 981; City
of San Jose, 546 F.3d at 1096, and we decline to address
the merits.
REVERSED, VACATED, and REMANDED with
instructions to dismiss the case. The parties shall bear
their own costs.

8a
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-16446
MARCUS & MILLICHAP REAL ESTATE
INVESTMENT SERVICES OF NEVADA, INC.; et al.,
Plaintiffs-Appellants,
v.
SHARATH CHANDRA, in his official capacity as
Administrator of the Real Estate Division, Department
of Business & Industry, State of Nevada; et al.,
Defendants-Appellees.
D.C. No. 2:16-cv-01299-RFB-GWF
District of Nevada, Las Vegas
ORDER
Filed June 8, 2020
Before: GOULD, BEA, and MURGUIA, Circuit Judges.
The parties are directed to file supplemental briefs
addressing whether the court should invoke Younger
abstention in this appeal. See Nationwide Biweekly
Admin., Inc. v. Owen, 873 F.3d 716, 727 (9th Cir. 2017)
(citing Younger v. Harris, 401 U.S. 37, 43–45 (1971)). The
parties’ briefs should address:

9a

1.

The status of the state proceedings;

2.

Whether the court may raise Younger abstention
sua sponte in this appeal;

3.

Whether the Appellees have forfeited or waived
the issue;

4.

Whether Younger abstention is applicable under
the circumstances; and

5.

Any other arguments the parties believe will aid
the court in determining whether the Younger
abstention doctrine should apply.

Both parties’ briefs are due by 6:00 p.m. Pacific
Daylight Time on June 24, 2020. The briefs are not to
exceed 3,000 words.

10a
Appendix A
C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-16446
MARCUS & MILLICHAP REAL ESTATE
INVESTMENT SERVICES OF NEVADA, INC.; et al.,
Plaintiffs-Appellants,
v.
SHARATH CHANDRA, in his official capacity as
Administrator of the Real Estate Division, Department
of Business & Industry, State of Nevada; et al.,
Defendants-Appellees.
D.C. No. 2:16-cv-01299-RFB-GWF
District of Nevada, Las Vegas
ORDER
Filed June 1, 2020
Before: GOULD, BEA, and MURGUIA, Circuit Judges.
Counsel should be prepared to discuss at oral
argument the applicability of Younger abstention. See
Nationwide Biweekly Admin., Inc. v. Owen, 873 F.3d 716,
727 (9th Cir. 2017) (citing Younger v. Harris, 401 U.S. 37,
43–45 (1971)).

11a
Appendix D
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
Case No. 2:16-cv-01299-RFB-GWF
MARCUS & MILLICHAP REAL ESTATE
INVESTMENT SERVICES OF NEVADA,
INC., MARCUS & MILLICHAP REAL
ESTATE INVESTMENT SERVICES, INC.,
GORDON ALLRED, ALVIN NAJIB
MANSOUR, KEVIN NAJIB MANSOUR,
PERRY WHITE, and NENAD ZIVKOVIC,
Plaintiffs,
v.
JOSEPH DECKER, in his official capacity as
Administrator of the Real Estate Division, Department
of Business & Industry, State of Nevada, and
NORMA JEAN OPATIK, NEIL SCHWARTZ,
SHERRIE CARTINELLA, DEVIN REISS, and
LEE K. BARRETT, in their official capacities as
Commissioners of the Nevada Real Estate Commission,
Defendants.
ORDER
Filed July 8, 2019

12a

Before the Court is Defendants’ Renewed Motion for
Summary Judgment (ECF No. 135), Plaintiffs’ Motion
for Summary Judgment (ECF No. 136), Plaintiffs’
Supplemental Summary Judgment Brief (ECF No.
159), Defendants’ Motion to Strike Portions of Amended
Complaint (ECF No. 178), Plaintiffs’ Motion for a Hearing
(ECF No. 188), and Plaintiffs’ Motion for Leave to File
Plaintiffs’ Supplemental Summary Judgment Brief (ECF
No. 190). For the reasons stated below, summary judgment
is granted in favor of Defendants, Defendants’ Motion to
Strike is denied, and Plaintiffs’ Motion for a Hearing and
Motion for Lave to File are denied.
I.

PROCEDURAL HISTORY

On June 10, 2016, Plaintiffs Gordon Allred, Alvin
Najib Mansour, Kevin Najib Mansour, Perry White, and
Nenad Zivkovic (collectively, “Individual Plaintiffs”),
Marcus & Millichap Real Estate Investment Services
of Nevada, Inc. (“M&M”), and Marcus & Millichap Real
Estate Investment Services, Inc. (“M&M National”) filed
a Complaint and Request for Declaratory and Injunctive
Relief against Defendants, officials of the Nevada Real
Estate Division (“NRED”) and Nevada Real Estate
Commission (“NREC”). (ECF No. 1). Plaintiffs assert
two Section 1983 claims, alleging that a NREC real
estate regulation 1) violates the Commerce Clause, and
2) violates the First Amendment. Plaintiffs additionally
seek declaratory and injunctive relief.
On July 12, 2017, Plaintiffs filed a Motion for
Preliminary Injunction. (ECF No. 47). Defendants filed

13a

a Response on July 25, 2017. (ECF No. 58). The Court
held a hearing on the Motion on July 26, 2017 and denied
the Motion without prejudice with leave to refile, as the
administrative hearings which Plaintiffs sought to enjoin
were continued from August to December. (ECF No. 63).
On August 25, 2017, Plaintiffs and Defendants filed
Cross-Motions for Summary Judgment. (ECF Nos. 7172). The same day, Plaintiffs also filed a Statement of
Material Facts regarding their Motion for Summary
Judgment. (ECF No. 74). The parties filed Responses
on September 15, 2017. (ECF Nos. 84-85). Replies
were filed on September 29, 2017. (ECF Nos. 92, 93).
The International Council of Shopping Centers, The
Commercial Real Estate Development Association,
and National Multifamily Housing Council (collectively,
“Interested Parties”) filed a Motion for Leave to File
Amicus Brief in Support of Plaintiffs on November 10,
2017. (ECF No. 96). The proposed amicus brief is attached
to the Motion. (ECF No. 96-1).
On November 14, 2017, Individual Plaintiffs filed
Emergency Renewal of Motion for a Temporary Injunction.
(ECF No. 100). M&M filed a Joinder on November 15,
2017. (ECF No. 103). Defendants filed a Response to the
Motion for Leave to File Amicus Brief on November 16,
2017. (ECF No. 108). Defendants filed a Response to the
Emergency Renewal of Motion on November 20, 2017.
(ECF No. 111). Plaintiffs filed a Supplemental Brief in
Support of the Motion for a Temporary Injunction on
December 1, 2017. (ECF No. 113). The Court denied the
Emergency Renewal of Motion on December 3, 2017.
(ECF No. 115).

14a

On December 4, 2017, Plaintiffs appealed the Court’s
denial of injunctive relief to the Ninth Circuit. (ECF
No. 115). On December 5, 2017, the Ninth Circuit denied
Plaintiffs’ emergency motion for an injunction pending the
appeal of this Court’s denial of a motion for preliminary
injunction. (ECF No. 119). Plaintiffs voluntarily dismissed
their appeal. (ECF No. 120).
On February 6, 2018, the Court held a hearing on
the parties’ cross-motions for summary judgment. (ECF
No. 129). The Court denied each parties’ motion without
prejudice.
On February 26, 2018, Plaintiffs filed a Motion for
Leave to File an Amended Complaint. (ECF No. 131).
Defendants responded (ECF No. 138) and Plaintiffs
replied (ECF No. 141).
On March 6, 2018, Defendants filed the instant
Renewed Motion for Summary Judgment (ECF No.
135) and Plaintiffs filed the instant Motion for Summary
Judgment (ECF No. 136). Each party filed a response
(ECF Nos. 139, 140) and a reply (ECF Nos. 143, 144).
On June 27, 2018, Plaintiffs f iled the instant
Supplemental Summary Judgment Brief (ECF No. 159)
and a Motion for Leave to File Plaintiffs’ Supplemental
Summary Judgment Brief (ECF No. 160). On September
20, 2018, the Court granted the Motion for Leave to File
and set a hearing regarding the motions for summary
judgment. (ECF No. 168). The Court denied Plaintiffs’
Motion for Leave to File an Amended Compliant without

15a

prejudice, such that Plaintiffs could refile the motion
after the Court ruled on the pending summary judgment
motions.
The Court held a hearing on October 10, 2018.
(ECF No. 173). The Court permitted supplementation
of the record regarding the legislative history of S.B.
69 and took the summary judgment motions under
consideration. The Court also granted Plaintiffs’ oral
motion for reconsideration of its order denying leave to file
an amended complaint. The Clerk of Court filed Plaintiffs’
amended complaint on October 26, 2018. (ECF No. 175).
On November 15, 2018, Defendants filed the instant
Motion to Strike Portions of Amended Complaint. (ECF
No. 178). Plaintiffs responded on November 21, 2018 (ECF
No. 180) and Defendants replied on November 29, 2018
(ECF No. 181).
On April 24, 2019, the Court held a status conference
regarding the status of the case and related case 2:18-cv02409-RFB-VCF. (ECF No. 187). On July 2, 2019,
Plaintiffs filed a Motion for Leave To File. (ECF No. 190).
II. FACTUAL FINDINGS
The Court finds the following facts to be undisputed.
M&M is a subsidiary of M&M National. M&M is
headquartered in Calabasas, California and has offices
in Las Vegas, Nevada and Reno, Nevada. M&M National
is also headquartered in Calabasas, California and it

16a

has other subsidiaries throughout the United States.
M&M and M&M National service commercial real estate
investment needs for clients across the United States.
Plaintiff Gordon Allred is First Vice President
of Investments with M&M National. Allred holds a
California broker’s license and works out of a Millichap
office in Ontario, California. He resides in California.
Plaintiff Alvin Najib Mansour is Executive Vice
President of Investments with M&M National. He is
also president for the Manour Group, which is an entity
affiliated with M&M National. Alvin Mansour holds a
California broker’s license and a Texas broker’s license.
He works out of a Millichap office in San Diego, California.
He resides in California.
Plaintiff Kevin Najib Mansour is Managing Partner
for the Mansour Group, which is an entity affiliated
with M&M National. Kevin Mansour holds a California
salesperson’s license and works out of the Mansour Group’s
San Diego, California office. He resides in California.
Plaintiff Perry White is a Vice President of Investments
with M&M National or M&M. White holds a Nevada
broker’s license and works out of the M&M office in Las
Vegas, Nevada. He resides in Nevada.
Plaintiff Nenad Zivkovic is an Associate with M&M
National. He is also a Senior Associate for the Mansour Group,
which is an entity affiliated with M&M National. Zivkovic holds
a Nevada salesperson’s license. He works out of Millichap’s
San Diego, California office. He resides in California.

17a

D e fend a nt S h a r at h Ch a nd r a i s t he N R ED
Administrator and has held that position since at least
2016. He was preceded by Joseph Decker, who held that
position at the time of the original Complaint’s filing.
Defenda nt Nor ma Jea n Opati k is an NREC
Commissioner and has held that position since at least
2015. She holds a Nevada real estate license.
Defendant Neil Schwartz is an NREC Commissioner
and has held that position since at least 2013. He holds a
Nevada license.
Defendant Wayne Capurro is an NREC Commissioner
and has held that position since at least 2016. He was
preceded in that position by Sherrie Cartinella, who
held that position at the time of the filing of the original
complaint. He holds a Nevada license.
Defendant Devin Reiss is an NREC Commissioner
and has held that position since at least 2014. He holds a
Nevada license.
Defendant Lee K. Barrett is an NREC Commissioner
and has held that position since at least 2015. He holds a
Nevada license.
Commercial real estate is a national marketplace
in which buyers and sellers of real estate often have
their offices or company headquarters in states other
than where the commercial property is located. Buyers
and sellers of commercial property are predominantly
sophisticated private and institutional investors.

18a

Commercial brokerage firms, like M&M National,
often have offices in multiple states, if not throughout
the country. M&M National has offices or subsidiaries
or affiliates in most major U.S. cities, with more than
1,600 affiliated commercial real estate agents across the
country.
M&M National and M&M ensure that transactions
involving Nevada real estate are overseen by a licensed
Nevada broker, even where the buyer and seller are not
Nevada residents and never enter the state.
The Nevada Real Estate Div ision (“NRED”)
is a Nevada state administrative agency. Nev. Rev.
Stat. § 645.001. It is managed by a single appointed
Administrator. The Nevada Real Estate Commission
(“NREC”) is a Nevada state administrative commission.
At the time of appointment, each NREC Commissioner
must have been a Nevada resident for no less than five
years and must have been actively engaged in business
either as a Nevada real estate broker for three years or
as a Nevada broker-salesperson for five years. Nev. Rev.
Stat. §645.090. The NREC acts in an advisory capacity
to the NRED, adopts regulations and conducts hearings
on matters of enforcement. Nev. Rev. Stat. §645.050.
Under Nevada law, an individual may not conduct
business as a commercial real estate broker or brokersalesperson in Nevada unless they obtain a Nevada
license. Nev. Rev. Stat. § 645.230. Nevada law permits
out-of-state licensed real estate brokers cooperating with
Nevada brokers to engage in real estate transactions.

19a

Nev. Rev. Stat. § 645.605. Pursuant to this statute,
“[t]he Administrator [of the Real Estate Division] shall
have authority to issue certificates authorizing out-ofstate licensed brokers to cooperate with Nevada brokers,
and the [Nevada Real Estate] Commission shall have
authority to promulgate rules and regulations establishing
the conditions under which such certificates shall be
issued and canceled . . . .”1 Id. Nevada Administrative
Code (“NAC”) Section 645.185 contains the rule for how
cooperative certificates may operate. Subsection 11, the
provision at issue, provides: “An out-of-state broker may
not use a cooperating broker’s certificate as authority to
sell or attempt to sell real estate in Nevada to a resident
of Nevada. Such a certificate may be used only for the
purpose of allowing the out-of-state broker or salesman
to offer real estate in Nevada for sale to a person other
than a resident of Nevada.” Cooperative certificates are
not available to unlicensed Nevada residents seeking to
conduct real estate business in Nevada. Id.
Under Nevada law, a real estate broker with a Nevada
license “shall have and maintain a definite place of business
within the State, which must be a room or rooms used for
the transaction of real estate business, or such business
and any allied businesses, and which must serve as the
office for the transaction of business under the authority
of the license, and where the license must be prominently
displayed.” Nev. Rev. Stat. § 645.550.
No Plaintiff or M&M agent or broker has ever been
1. These certificates are referred to by the parties as
“cooperative certificates.” The Court adopts such language in this
Order.

20a

disciplined or subject to discipline for violating the
requirement to have an office in Nevada to hang their
license. No Plaintiff or M&M agent or broker has sought
or requested from NRED a broker’s license that did not
require an in-state presence but where the broker could
hang her or his license with a local cooperating broker.
NRED initiated and pursued disciplinary action against
Plaintiff Allred for violating Sections 645.230 and 645.235
for engaging in commercial real estate business conduct
without having a Nevada license as a real estate broker,
broker-salesperson or salesperson and without having a
cooperative certificate from NRED. Plaintiff Allred was
ultimately found by NREC to have violated Nevada law
and was ordered to pay $301,639.89 in fines and fees.
NRED initiated and pursued two disciplinary
actions against Plaintiff White. The first was initiated for
violating Section 645.235 by assisting another person in
engaging business activity that requires a license, permit,
certificate or registration under Chapter 645 even though
the person did not have a license, permit, certificate or
registration and for violating Section 645.252 by not
exercising reasonable skill and care regarding a real
estate transaction. Plaintiff White was ultimately found by
the NREC to have violated Nevada law and was ordered
to pay $16,624.33 in fines and fees. NRED pursued a
second disciplinary action against Plaintiff White for
violating Section 645.235 by assisting another person in
engaging business activity that requires a license, permit,
certificate or registration under Chapter 645 even though
the person did not have a license, permit, certificate or
registration. Plaintiff White was ultimately found by the

21a

NREC to have violated Nevada law and was ordered to
pay $5,811.79 for this second violation.
NRED initiated and pursued disciplinary action
against Plaintiff Alvin Mansour for violating Sections
645.230 and 645.235 for engaging in commercial real
estate business conduct without having a Nevada license
as a real estate broker, broker-salesperson or salesperson
and without having a cooperative certificate from NRED.
Plaintiff Alvin Mansour was ultimately found by NREC
to have violated Nevada law and was ordered to pay
$30,811.79 in fines and fees.
NRED initiated and pursued disciplinary action
against Plaintiff Kevin Mansour for violating Sections
645.230 and 645.235 for engaging in commercial real
estate business conduct without having a Nevada license
as a real estate broker, broker-salesperson or salesperson
and without having a cooperative certificate from NRED.
Plaintiff Kevin Mansour was ultimately found by NREC to
have violated Nevada law and was ordered to pay $5,811.79
in fines and fees.
NRED initiated and pursued disciplinary action
against Plaintiff Zivkovic for violating Section 645.235
by assisting another person in engaging business activity
that requires a license, permit, certificate or registration
under Chapter 645. Plaintiff Zivkovic was ultimately found
by NREC to have violated Nevada law and was ordered
to pay $30,811.79 in fines and fees.
There is no disputed or undisputed evidence indicating
that any Plaintiff in this case has been charged with or had

22a

action taken against them for violating the requirement
for a licensed Nevada broker to have a room or office in
Nevada in which their license hangs.
III. LEGAL STANDARD
Summa r y judg ment is appropr iate when the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any, show
“that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a); accord Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986). When considering the propriety of
summary judgment, the court views all facts and draws
all inferences in the light most favorable to the nonmoving
party. Gonzalez v. City of Anaheim, 747 F.3d 789, 793 (9th
Cir. 2014). If the movant has carried its burden, the nonmoving party “must do more than simply show that there
is some metaphysical doubt as to the material facts….
Where the record taken as a whole could not lead a rational
trier of fact to find for the nonmoving party, there is no
genuine issue for trial.” Scott v. Harris, 550 U.S. 372, 380
(2007) (alteration in original) (internal quotation marks
omitted). It is improper for the Court to resolve genuine
factual disputes or make credibility determinations at the
summary judgment stage. Zetwick v. Cty. of Yolo, 850 F.3d
436, 441 (9th Cir. 2017) (citations omitted).
A litigant must have “standing” in order to “maintain
a lawsuit in federal court to seek redress for a legal
wrong.” Spokeo, Inc. v. Robins, 135 S.Ct. 1540, 1547 (2016).
Standing consists of three elements. Id. “The plaintiff

23a

must have (1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant, and
(3) that is likely to be redressed by a favorable judicial
decision.” Id.
The injury in fact element is the “first and foremost”
of the standing elements. Id. “To establish injury in fact,
a plaintiff must show that he or she suffered ‘an invasion
of a legally protected interest’ that is ‘concrete and
particularized’ and ‘actual or imminent, not conjectural
or hypothetical.’” Id. at 1548 (quoting Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560 (1992). To establish
redressability, a plaintiff must show that it is “likely,
as opposed to merely speculative, that the injury will
be redressed by a favorable decision.” Lujan, 504 U.S.
at 561. However, a plaintiff’s burden to demonstrate
redressability is “relatively modest.” M.S. v. Brown, 902
F.3d 1076, 1083 (9th Cir. 2018) (internal citations omitted).
IV. DISCUSSION
a.

Motions for Summary Judgment

Plaintiffs have asserted a few arguments in support
of their motion and in response to Defendants’ motion.
First, Plaintiffs have averred that Nevada’s requirement
that out-of-state real estate brokers obtain a Nevada
license and/or a cooperative certificate to assist out-ofstate clients with purchases of property in Nevada violates
the Dormant Commerce Clause. Second, Plaintiffs have
asserted that Nevada’s requirement that brokers with a
Nevada license maintain an office in Nevada violates the
Dormant Commerce Clause.

24a

Defendants have asserted opposing arguments in
support of their motion and in response to Plaintiffs’
motion. First, the Defendants argue that Plaintiffs do
not have standing to challenge the Nevada statutes
regarding the cooperative certificate and the requirement
that Nevada brokers maintain a Nevada office. Second,
Defendants argue that Nevada does not unlawfully
burden out-of-state residents or brokers in violation of
the Dormant Commerce Clause.
i.

Individual Plaintiffs Have Standing To
Challenge Nevada Licensing Statutes Only

The Court finds that Individual Plaintiffs have
standing to challenge only Nevada’s licensing statutes as
they apply to out-of-state brokers seeking to conduct real
estate business within the state. The undisputed facts
establish that Individual Plaintiffs are all engaged in
commercial real transactions involving clients conducting
interstate business and seeking to purchase property
in Nevada. Individual Plaintiffs have suffered an injury
in fact. All Individual Plaintiffs have had enforcement
proceedings brought against them and judgments entered
against them for violating Nevada law regarding outof-state residents or brokers engaging commercial real
estate transactions in Nevada without a Nevada license
or cooperative certificate. These enforcement actions and
judgments can be traced directly back to the challenged
conduct – the inability of out-of-state brokers to practice
in Nevada without a Nevada license or cooperative
certificate. Finally, if the Court were to find that Nevada’s
requirement for a real estate broker to obtain a Nevada

25a

license before engaging in interstate commercial real
estate transactions in Nevada was unconstitutional, it
would result in this Court enjoining enforcement of the
state agency’s judgments against Individual Plaintiffs. See
Verizon Maryland, Inc. v. Pub. Serv. Comm’n of Maryland,
535 U.S. 635, 644 n.3 (2002) (noting lack of jurisdictional
bar to a federal court’s review of determinations made by
a state administrative agency). Thus, the Court finds that
a favorable decision for Individual Plaintiffs would redress
their injury from the enforcement judgments entered
against them. The Court therefore finds that Individual
Plaintiffs have standing to challenge Nevada’s statutes
regarding broker licensing and cooperative certificates.
The Court finds that M&M and M&M National lack
standing to change the licensing statutes. M&M and
M&M National can establish no injury traceable to the
statutes, which regulates the licensure of individuals.
No enforcement judgments have been or could be
entered against these entities. Nor can M&M and M&M
National exert associational standing on behalf of affected
brokers, as such standing is reserved for unions and
similar organizations whose “purpose is the protection
and promotion” of a population or industry. See Hunt v.
Washington State Apple Advert. Comm’n, 432 U.S. 333,
343–45 (1977).
The Court also finds that none of Plaintiffs have
standing to challenge Nevada Revised Statutes (“N.R.S.”)
Section 645.550. None of Plaintiffs have established an
injury in fact related to this particular statute. Only one
of Individual Plaintiffs, Mr. White, has a Nevada broker’s

26a

license, but he has asserted no threatened or actual injury
in relation to this statute. White actually works out of
Las Vegas. None of Plaintiffs have sought relief from this
statute, nor established a possible threat of legal action
against them for violation of this statute. M&M and M&M
National have offices in Nevada, so this statute has not
been at issue in the record in this case. None of Plaintiffs
have had enforcement actions initiated against them for
violation of this statute’s requirements. Thus, none of
Plaintiffs can establish an injury in fact that is traceable
to N.R.S. Section 645.550.
Moreover, the Court finds that a favorable decision
on the constitutionality of this statute would not redress
the primary injury of Plaintiffs. Plaintiffs’ essential
argument is that out-of-state licensed brokers should be
able to practice and conduct real estate transactions in
Nevada for out-of-state clients without obtaining a Nevada
broker license or a cooperative certificate. Plaintiffs have
not offered disputed or undisputed facts establishing the
burden placed upon out-of-state brokers with a Nevada
broker’s license of having to maintain an office or room
in Nevada. Thus, even if the Court were to find that the
requirement was unconstitutional, this finding would not
result in a favorable outcome for Plaintiffs, since the injury
Individual Plaintiffs have suffered derives from their
failure to have a Nevada broker’s license or cooperative
certificate and not from their failure to maintain an office
in Nevada as a Nevada-licensed real estate broker. The
Court therefore finds that Plaintiffs do not have standing
to challenge N.R.S. § 645.550.

27a

ii.

Nevada’s Licensing Requirements Do Not
Violate The Dormant Commerce Clause.

The Court finds that Nevada’s statutes requiring a
Nevada broker’s license or a cooperative certificate to
engage in commercial real estate transactions in Nevada
do not violate the Dormant Commerce Clause.
There are two potential analytic standards that may
apply in dormant Commerce Clause analysis. First, if a
statute or law discriminates against out-of-state economic
interests on its face, it is “virtually per se invalid”
and “will survive only if it ‘advances a legitimate local
purpose that cannot be adequately served by reasonable
nondiscriminatory alternatives.’” Dep’t of Revenue of
Ky. v. Davis, 553 U.S. 328, 338 (2008) (citations omitted).
Absent facial or purposeful discrimination, however, the
Pike balancing test applies, and “the law ‘will be upheld
unless the burden imposed on [interstate] commerce is
clearly excessive in relation to the putative local benefits.’”
Id. at 338–39 (quoting Pike v. Bruce Church, Inc., 397 U.S.
137, 142 (1970)).
The Court first addresses the appropriate standard
to apply to its analysis of this issue and finds that the Pike
balancing test is the applicable standard. It is undisputed
that, under Nevada law, an out-of-state individual can
obtain a Nevada broker’s license which grants that
individual all of the same professional authority to operate
as an individual who is in state and licensed. Nev. Rev.
Stat. §§ 645.330(1), (4). Moreover, and importantly, the
statute describing eligibility for a Nevada broker’s license

28a

imposes identical requirements on both non-residents
and residents. See Nat’l Ass’n for the Advancement
of Multijurisdiction Practice v. Berch, 773 F.3d 1037,
1049 (9th Cir. 2014) (“Arizona requires the same of its
citizens as it does citizens of other states.”); Nat’l Ass’n
of Optometrists & Opticians LensCrafters, Inc. v. Brown,
567 F.3d 521, 525 (9th Cir. 2009) (“California treats outof-state opticians . . . the same as in-state opticians.”). The
law therefore does not facially exclude out-of-state brokers
and the Pike balancing test applies to the Court’s inquiry
regarding Nevada’s statutory licensing requirement for
real estate brokers.
Applying the Pike balancing test, the Court first finds
that Nevada’s statutory scheme regarding the licensing
of real estate brokers reflects the state’s legitimate
concern and authority to regulate professional practices
and licensure within its borders. See, e.g., Nationwide
Biweekly Admin., Inc. v. Owen, 873 F.3d 716, 736 (9th Cir.
2017) (“Anyone acting as a prorater in California must
first obtain a prorater license from California. . . . On its
own, the requirement of state licensure is legitimate[.]”);
cf. Nat’l Ass’n for the Advancement of Multijurisdiction
Practice, 773 F.3d at 1045 (noting the extreme deference
given to a state’s regulation of its licensed professionals).
The state’s limitation on the activities of non-Nevada
licensed real estate professionals is consistent with the
state’s legitimate interest in establishing standards for
and monitoring the activities of real estate professionals
who operate in Nevada in relation to Nevada property law.
The state’s interest is particularly strong in the instant
professional context, as states are uniquely vested with

29a

establishing laws regarding the buying and selling of a
state’s real property. Butner v. United States, 440 U.S. 48,
55 (1979) (“Property interests are created and defined by
state law.”). Thus, the Court finds that the burden imposed
on interstate commerce is not clearly excessive in relation to
local benefits. The regulatory system ensures that brokers
listing, advertising, marketing, and selling real property in
Nevada are knowledgeable of the applicable state law and
subject to professional standards that help prevent fraud
and ensure minimum competence. Out-of-state residents
are subject to the same licensing requirements as in-state
residents. Neither in-state or out-of-state residents may
conduct real estate business without obtaining the proper
licenses and permissions under Nevada law.
Additionally, the Court finds that the burden is
not excessive as any professional who would seek to
competently and adequately represent a client involved
in a real estate transaction in Nevada would necessarily
need to know and understand Nevada real estate or
property law. Plaintiffs have not established—nor could
they—that a real estate professional would not need
to be knowledgeable of and professionally conversant
in Nevada real estate law to adequately facilitate real
estate transactions that were consistent with Nevada
law. Plaintiffs have not established—nor could they—
that property law in Nevada (or any other state) was so
generic and common that knowledge of another state’s
law by licensure would make one fully knowledgeable of
all the essentials and nuances of Nevada property law. Cf.
State Box Co. v. United States, 321 F.2d 640, 641 (9th Cir.
1963) (referencing the lack of uniformity across states’
real property laws).

30a

Finally, the Court rejects Plaintiffs’ singular focus on
the cooperative certificate without consideration of the entire
statutory scheme as a basis for establishing a constitutional
violation. The fact that Nevada, in its discretion, permits
out-of-state licensed brokers to conduct real estate business
in limited circumstances does not ipso facto create a
constitutional basis or requirement for the state to grant
out-of-state licensed brokers the same authority to Nevadalicensed brokers. This exercise of discretion does not curtail
or alter the state’s ability to regulate real estate professionals
whether residents or not who engage in real estate business
in Nevada subject to Nevada’s property law.
Pursuant to the Pike test, the Court finds that the
Nevada licensing scheme as applied to out-of-state
brokers does not violate the Dormant Commerce Clause.
Therefore, the Court grants summary judgment in favor
of Defendants and against Plaintiffs.
b.

Motion to Strike

Defendants argue that certain portions of Plaintiffs’
Amended Complaint, filed with leave of Court on October
26, 2018, exceed the scope of the Court’s leave to amend.
Defendants invoke Rule 12 of the Federal Rules of Civil
Procedure, which empowers this Court to strike from
the pleading “any redundant, immaterial, impertinent,
or scandalous matter.” Fed. R. Civ. P. 12(f).
The Court granted Plaintiffs leave to amend in order to
raise the issue of N.R.S. Section 645.550 and its relationship
to the cooperative certificate. The Court specifically stated
that it would “allow for amendment as it relates to adding a

31a

challenge to Section 555” and that it would not consider the
addition of “other types of challenges.” (ECF No. 179 at 12).
The Court did not approve the addition of unrelated facts
and a renewed First Amendment claim in the Amended
Complaint. The Court therefore grants Defendants’ Motion
to Strike Portions of Amended Complaint in regard to the
First Amendment claim.
V. CONCLUSION
IT IS THEREFORE ORDERED that Defendants’
Renewed Motion for Summary Judgment (ECF No. 135)
is GRANTED.
IT IS FURTHER ORDERED that Plaintiffs’ Motion
for Summary Judgment (ECF No. 136) and Plaintiffs’
Supplemental Summary Judgment Brief (ECF No. 159)
are DENIED.
IT IS FURTHER ORDERED that Defendants’
Motion to Strike Potions of Amended Complaint (ECF
No. 178) is GRANTED.
IT IS FURTHER ORDERED that Plaintiffs’ Motion
for a Hearing (ECF No. 188) is DENIED as moot.
IT IS FURTHER ORDERED that Plaintiffs’ Motion
for Leave to File Plaintiffs’ Supplemental Summary
Judgment Brief (ECF No. 190) is DENIED for lack of
good cause. LR 7-2(g). 2
2. Even if the Court permitted Plaintiffs to file their
Supplemental Summary Judgment Brief, the Court finds that

32a

IT IS FURTHER ORDERED that judgment be
entered in favor of Defendants. The Clerk of Court is
instructed to close this case.
DATED: July 8, 2019.
		
		
		

/s/
RICHARD F. BOULWARE, II
UNITED STATES DISTRICT JUDGE

Tennessee Wine & Spirits Retailers 14 Association v. Thomas, No.
18-96, 2019 WL 2605555 (U.S. June 26, 2019), is inapplicable to
the analysis in this case. In Tennessee Wine, the Supreme Court
evaluated the constitutionality of a statute that facially discriminates
against out-of-state residents and was therefore subject to strict
scrutiny. Id. at *7. As discussed above, Nevada’s licensing scheme
imposes identical requirements on both non-residents and residents
and is therefore subject to the less stringent Pike balancing test.

33a
Appendix E
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-16446
MARCUS & MILLICHAP REAL ESTATE
INVESTMENT SERVICES OF NEVADA, INC.;
MARCUS & MILLICHAP REAL ESTATE
INVESTMENT SERVICES, INC.; ALVIN NAJIB
MANSOUR; GORDON ALLRED; KEVIN NAJIB
MANSOUR; PERRY WHITE; NENAD ZIVKOVIC,
Plaintiffs-Appellants,
v.
SHARATH CHANDRA, in his official capacity
as Administrator of the Real Estate Division,
Department of Business & Industry, State of Nevada;
norma jean opatik, in her official capacity as
Commissioner of the Nevada Real Estate Commission;
neil schwartz, in his official capacity as
Commissioner of the Nevada Real Estate Commission;
wayne capurro, in his official capacity as
Commissioner of the Nevada Real Estate Commission;
devin reiss, in his official capacity as Commissioner
of the Nevada Real Estate Commission; lee k.
barrett, in his official capacity as Commissioner of
the Nevada Real Estate Commission,
Defendants-Appellees.
D.C. No. 2:16-cv-01299-RFB-GWF
District of Nevada, Las Vegas

34a

ORDER
Filed Sept. 21, 2020
Before: GOULD, BEA, and MURGUIA, Circuit Judges.
Judges Gould and Murguia vote to deny the petition
for rehearing en banc and Judge Bea so recommends.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
67).

The petition for rehearing en banc is DENIED (Doc.

